<html>
<title> - BALLAST WATER MANAGEMENT AND REDUCTION OF AIR POLLUTION FROM SHIPS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
   BALLAST WATER MANAGEMENT AND REDUCTION OF AIR POLLUTION FROM SHIPS

=======================================================================

                                (109-87)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 11, 2006

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                    U.S. GOVERNMENT PRINTING OFFICE
30-657                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)




        SUBCOMMITTEE ON COAST GUARD AND MARITIME TRANSPORTATION

                FRANK A. LOBIONDO, New Jersey, Chairman

HOWARD COBLE, North Carolina         BOB FILNER, California, Ranking 
WAYNE T. GILCHREST, Maryland         Democrat
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
ROB SIMMONS, Connecticut             GENE TAYLOR, Mississippi
MARIO DIAZ-BALART, Florida           JUANITA MILLENDER-McDONALD, 
DAVID G. REICHERT, Washington,Vice-  California
Chair                                MICHAEL M. HONDA, California
CONNIE MACK, Florida                 ANTHONY D. WEINER, New York
LUIS G. FORTUNO, Puerto Rico         BRIAN HIGGINS, New York
CHARLES W. BOUSTANY, Jr., Louisiana  BRIAN BAIRD, Washington
DON YOUNG, Alaska                    JAMES L. OBERSTAR, Minnesota
  (Ex Officio)                         (Ex Officio)

                                 (iii)

                                CONTENTS

                               TESTIMONY

                                                                   Page
 Hazlewood, Catherine L., Senior Policy Advisor, Global Invasive 
  Species Initiative, The Nature Conservancy.....................    21
 Keeney, Timothy R.E., Deputy Assistant Secretary for Oceans and 
  Atmosphere, National Oceanic and Atmospheric Administration, 
  U.S. Department of Commerce....................................     7
 Metcalf, Kathy J., Director of Maritime Affairs, Chamber of 
  Shipping of America............................................    21
 O'Hare, Donald L., Vice President, World Shipping Council.......    21
 Salerno, Rear Admiral Brian, Director of Inspections and 
  Compliance, U.S. Coast Guard Headquarters......................     7

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Ehlers, Hon. Vernon J., of Michigan..............................    33
Filner, Hon. Bob, of California..................................    35
Hoekstra, Hon. Peter, of Michigan................................    50
LoBiondo, Hon. Frank A., of New Jersey...........................    64

             PREPARED STATEMENTS SUBMITTED BY THE WITNESSES

 Hazlewood, Catherine L..........................................    38
 Keeney, Timothy R.E.............................................    52
 Metcalf, Kathy J................................................    65
 O'Hare, Donald L................................................    74
 Salerno, Rear Admiral Brian.....................................    83


   BALLAST WATER MANAGEMENT AND REDUCTION OF AIR POLLUTION FROM SHIPS

                              ----------                              


                         Tuesday, July 11, 2006

        House of Representatives, Subcommittee on Coast 
            Guard and Maritime Transportation, Committee on 
            Transportation and Infrastructure, Washington, 
            D.C.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2167, Rayburn House Office Building, the Hon. Frank A. 
LoBiondo [Chairman of the subcommittee] presiding.
    Mr. LoBiondo. Good morning. The Subcommittee will come to 
order.
    The Subcommittee is meeting this morning to review draft 
legislation that addresses the treatment of invasive species in 
ballast water and the implementation of international vessel 
emission requirements under Annex VI of the MARPOL Convention. 
This Subcommittee has held numerous oversight hearings on the 
Federal Government's efforts to reduce the risk of aquatic 
invasive species through the release of ballast water from 
vessels operating in U.S. waters. The Coast Guard has issued 
regulations to require all vessels on a voyage originating in a 
foreign port to carry out ballast water exchange before the 
vessels enter U.S. waters.
    I am concerned, however, that the ballast water exchange 
alone may not fully protect our coastal ecosystems from the 
threat of invasive species.
    This draft bill would require the Coast Guard to establish 
national ballast water discharge standards after the service 
has certified there exists alternative ballast water management 
methods which are capable of reducing the concentration of 
organisms in ballast water, at least to the international 
standard. If the Coast Guard determines concentrations of 
invasive species can be reduced to a level which exceeds the 
international standards, the draft bill requires the Coast 
Guard to issue regulations implementing methods to do so.
    The draft bill also proposes to use the Coast Guard 
Shipboard Technology Evaluation Program to demonstrate the 
capabilities of experimental alternative ballast water 
management methods on board vessels active in maritime 
commerce.
    The draft bill is a work in progress. It does not represent 
a consensus of all interested parties or members of this 
Subcommittee.
    I look forward to hearing the comments of the witnesses and 
the members of the Subcommittee on how we should direct the 
Coast Guard to address ballast water management in the future.
    The Subcommittee is also considering draft legislation that 
would implement international vessel emission standards that 
were agreed to in MARPOL Annex VI. Earlier this year, the 
Senate gave its advice and consent to the treaty, contingent on 
the adoption of legislation to implement these requirements 
here in the United States.
    The draft bill incorporates several provisions included in 
the Administration's proposal to Congress with several changes 
regarding the role of the Environmental Protection Agency to 
develop and administer and enforce regulation aboard vessels 
operating in the United States.
    The draft bill proposes to maintain these responsibilities 
of administering and enforcing U.S. laws aboard vessels under 
the authority of the Coast Guard. The Coast Guard currently 
administers and enforces regulations regarding the release of 
oil, harmful substances, and garbage from vessels that were 
issued under the authority of the Act to prevent pollution from 
ships. The Coast Guard should remain the primary Federal agency 
responsible for implementing the Act. The draft bill would 
require the Coast Guard, in consultation with EPA, to issue 
regulations to reduce the emission of pollutants from vessels 
operating in U.S. territorial waters.
    The draft bill would also require ports and terminals to 
provide vessel operators access to adequate reception 
facilities for ozone-depleting substances and other compounds.
    I want to thank the members of the Subcommittee for their 
continuing involvement in the development of this legislation. 
I look forward to working with those members as we continue to 
address these importance issues
    I would like to ask unanimous consent that Mr. Ehlers be 
able to sit on the Committee this morning.
    If no objection, so ordered.
    I will turn to Mr. Filner for an opening statement.
    Mr. Filner. Thank you, Mr. Chairman. Welcome, Dr. Ehlers 
and Mr. Hoekstra to this Committee. Thank you.
    Those of us, like myself, who represent port regions of our 
Country, and I represent San Diego, California, are obviously 
concerned about the pollution from ships entering our ports. 
While they do bring economic activity, they also have the 
potential of bringing in pollution.
    The ballast water is important to maintaining a ship's 
stability, but it also contains plants and animals from foreign 
ports that pollute our waters. These foreign critters can grow 
and thrive in our waters because they don't have any natural 
predators. Ports and communities around the United States spend 
billions of dollars annually to address the problems created by 
these invasive species.
    Because of these concerns, Congress enacted a program for 
voluntary ballast water exchange for ships entering the United 
States from overseas. People were under the misguided 
perception that vessel owners would spend money voluntarily to 
pump out the ballast water they took on in a foreign port and 
replace it with saltwater mid-ocean. When shipowners failed to 
participate in this program, the Coast Guard made it a 
mandatory program for all vessels entering the United States.
    As the Chairman said, now is the time to move to the next 
step in solving this problem. The ballast water must be treated 
just as we treat sewage before it is discharged in our waters.
    The International Maritime Organization has adopted the new 
convention entitled the International Convention for the 
Control and Management of Ships' Ballast Water and Sediments. 
While the overall framework of this convention is good and 
commendable, the treatment standards adopted by the IMO were 
the lowest common denominator that could be agreed by the flag-
of-convenience countries and the countries whose shipowners 
register their vessels in flag-of-convenience countries. 
Attempts by the U.S. delegation to strengthen the environmental 
standards in the convention were rejected.
    It is time for Congress to enact meaningful standards for 
ballast water treatment that will protect our environment and 
our communities. These standards should also apply to U.S.-flag 
ships that move between two different ecosystems in the U.S.
    The other portion of today's hearing will deal with 
possible implementing legislation for so-called MARPOL Annex VI 
which deals with emissions from ships and offshore platforms. 
Regional air quality standards and global warming require us to 
look at every source of pollution in our communities. Ships 
should not be allowed to enter our ports unless they comply 
with these standards.
    The question remains as to whether or not a State like 
California should be allowed to enact more stringent emission 
standards for vessels that are in our ports. The current Clean 
Water Act allows California to do so. I believe that that 
authority should be maintained in any legislation to regulate 
emissions from ships.
    Thank you, Mr. Chairman for scheduling this hearing today. 
I look forward to working with you to develop bipartisan 
legislation to regulate both ballast water and ship emissions. 
There are not many days left in our session. I am hopeful that 
if we start early to work with the other body on this 
legislation, we can enact it this year.
    Thank you, Mr. Chairman.
    Mr. Gilchrest. [Presiding] Mr. Ehlers, an opening 
statement?
    Mr. Ehlers. Thank you, Mr. Chairman.
    As Mr. LoBiondo said a few moments ago, ballast water 
exchange is not enough. I want to thank the Chairman very much 
for holding this important hearing today.
    Ballast water management and the broader issue of aquatic 
invasive species is a matter that receives far too little 
attention, given its drastic impact on the economy and the 
environment. I have been actively working on this issue for 
several years, and I am pleased that the Chairman recognizes 
how critical this issue is, and I am hopeful that we can work 
together to move forward with legislation to improve and 
strengthen existing law in this area.
    An aquatic invasive species is defined as a species that is 
both non-native to the ecosystem and whose introduction causes 
or may cause economic or environmental harm to harm to human 
health. Aquatic invaders enter the ecosystem through many 
different pathways, for example, the ballast water of a 
shipping vessel, attached to a ship, natural migration, et 
cetera, but clearly, the ballast water is a major avenue or a 
major pathway.
    The economic damage includes the cost of the control, 
damage to property values, health costs, and other factors. 
Just one species can cost Government and private citizens 
billions of dollars. For example, zebra mussels alone have cost 
the various entities in the Great Lakes Basin an estimated $3 
billion for the past 10 years for cleaning water intake pipes, 
purchasing filtration equipment, and so forth. Sea lamprey 
control measures in the Great Lakes cost at least $10 to $15 
million annually. The total annual cost for the United States 
for the Governments and the citizens runs approximately $13 
billion per year. This is not chump change.
    This is not just a Great Lakes issue. From Asian carp in 
the Mississippi to Chinese mitten crabs in the North Pacific to 
moon jellyfish in the Gulf and on and on, we have many foreign 
invaders including those mentioned by the gentleman from San 
Diego a few minutes ago.
    Given the enormous economic and environmental impact that 
these invaders cause, two clear goals emerge. First, we need to 
focus more resources and energy into dealing with this problem 
at all levels of Government. Second, our best strategy for 
dealing with invasive species is to focus these resources to 
prevent them from ever entering the United States. Spending 
millions of dollars to prevent species introduction will save 
billions of dollars in control, eradication, and restoration 
efforts. The old adage is still true: An ounce of prevention is 
worth a pound of cure.
    Along with our colleague on this Committee, Mr. Gilchrest, 
I have introduced comprehensive legislation that has received 
broad bipartisan support. I won't get into the details of that 
legislation here, but it adds ballast water treatment 
technology certification, not just ballast water exchange but a 
treatment technology certification program and incentives to 
shipowners to install experimental treatment technology.
    Unfortunately, the draft bill that we are discussing here 
today is not comprehensive. It is a good start, but we need 
something more. It does not address the many other pathways 
that aquatic invasive species enter into our waterways and 
ecosystems. I recognize this Committee does not have 
jurisdiction over many of the elements necessary to take a 
comprehensive approach, but I am hopeful that we can move 
forward with a comprehensive bill at some point.
    I have introduced legislation related to our existing 
research needs. Let me emphasize research needs because that is 
all it concentrates on. When it comes to understanding invasive 
species, how they get in, and how to stop them from entering 
and spreading, the Aquatic Invasive Species Research Act, H.R. 
1592, authorizes comprehensive research to ensure that efforts 
to prevent, control, and eradicate aquatic invasive species are 
based on the best science and done in the most cost-effective 
and environmentally sound manner. It puzzles me why that bill 
has not received more support and passage because it does not 
adopt any policy changes; it just simply says, look, let us do 
the research. We can't make the right decisions without doing 
the research first.
    Mr. Chairman, we must have a strong research portfolio to 
understand as much as we can and how much we need to about 
these critters and how to prevent them from entering an 
ecosystem and wreaking havoc.
    I appreciate the surveys included in the draft legislation 
which will be very helpful. I hope that the Committee and the 
Chairman will work with me in incorporating other provisions 
that have already been favorably approved by the Science 
Committee.
    I look forward to hearing from the witnesses today. I look 
forward to working cooperatively with the Subcommittee and the 
full Committee to try to address this very costly and 
environmentally damaging phenomenon.
    I yield back, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Ehlers, and I do look forward 
to working with you on this issue, so that we can integrate 
policies both from the Science Committee and the Transportation 
Committee.
    Mr. Ehlers. Mr. Chairman, may I respectfully ask that the 
remainder of my statement be entered into the record?
    Mr. Gilchrest. Without objection.
    The other gentleman from Michigan, Mr. Hoekstra?
    Mr. Hoekstra. I thank the Chair for the opportunity just to 
make some brief comments. I would like to submit my entire 
statement for the record.
    Mr. Gilchrest. Without objection.
    Mr. Hoekstra. I am glad that the Chairman is holding this 
hearing. I am glad that we have bipartisan support in moving 
forward in addressing this issue.
    Concrete action under the basis of the 1990 legislation and 
the 1996 amendments contained in the National Invasive Species 
Act have been painfully slow. Action has been paralyzed by 
seemingly endless analysis. We continue to await the required 
analyses and standards, but new invasive species have been 
introduced and taken up residence, and the people of the Great 
Lakes Region have paid the price.
    I prefer the terminology used by my colleague on the other 
side of the aisle for invasive species. I like the term, 
critters. We keep getting more of these critters into the Great 
Lakes, and it has a direct economic impact as well as an 
environmental impact.
    For many in the Great Lakes Region, the claim that the 
technology is not available to justify alternative ballast 
water treatment methods sounds more and more like excuses from 
those resistance to change or unwilling to acknowledge the 
severity of the issue. Research in the area of ballast water 
treatment has taken place for over a decade, but there has been 
no force or incentive driving the implementation of solutions.
    I think that the staff draft is a step in the right 
direction. I know my colleague from Michigan, he has introduced 
legislation in this area. I have introduced legislation in the 
past. I hope that, on a bipartisan basis, we can actually 
implement some legislation that gets this process moving 
forward.
    On that, Mr. Chairman, I will yield back the balance of my 
time.
    Mr. Filner. I am glad that "critters" will bring our two 
parties together. Thank you.
    Mr. Gilchrest. It sounds like a country and western song.
    Thank you, Mr. Hoekstra.
    We look forward to the witnesses testifying today, so we 
can have some sense of understanding of where the Coast Guard 
is, where NOAA is, where the Administration is on this 
basically international issue, and where the U.S. fits in with 
the IMO, and where the vote is on international agreements, and 
what the status is for the size of the critter that we want to 
eliminate in the ballast water.
    My colleagues are correct that this is an economic issue. 
It is an ecological issue. It is a research issue. It is a 
science issue. It is a public policy issue.
    I guess the Founding Fathers didn't envision that we would 
have so much to do as individual members of Congress to focus 
on any one particular issue, but I think for the remainder of 
this term and certainly in the next Congress, we hope we can 
get something done in this term. This is an issue that has been 
very fragmented, and it is an issue that people have been 
focused on either in the Congress or the Administration.
    So, we don't want to take people to task here today for not 
coming up with a solution yet, but I want to make a comment, 
especially for my colleague from Michigan, Mr. Ehlers or Dr. 
Ehlers. I am going to wait until he stops talking, so he hears 
this and corrects me where I am wrong. I am telling the 
audience that I want to make a comment with your background in 
mind.
    To understand the ecological issue, we need to understand 
the physics of the ecology. If we can understand, and Vern 
does, the Theory of General Relativity, quantum mechanics, and 
string theory as basic building blocks for the framework of 
understanding the somewhat unknown origin of creation and what 
has happened since then, this sets up the framework for our 
whole ecology.
    If we can understand those vast, complex theories, I think 
we can focus on planet Earth and understand the issue of 
invasive species in ballast water and how they disrupt the 
ecological systems of the Great Lakes, the Chesapeake Bay, and 
the Gulf of Mexico. You name it; they are disrupting it, 
costing a lot of money. We are doing really unknown damage for 
millenniums to come with species that we depend on, like 
oysters in the Chesapeake Bay which have been devastated mainly 
because of ballast water, and the problems that they have with 
a series of critters in the Great Lakes.
    If we can really, literally have ongoing dialogues about 
the intricacies of the universe and the tiny, tiny, tiny, 
infinitesimal particles that make up that and cause gravity to 
happen, well, we can sure find technology to eliminate invasive 
species in ballast water. I really think we can.
    So, unless my colleague wants to make a comment about my 
layman's perspective on physics.
    Mr. Ehlers. Mr. Chairman, I yield to your greater authority 
of layman's knowledge of physics.
    Mr. Gilchrest. Greater authority of layman's knowledge--I 
have a lot more confidence now, Vern, thank you.
    We thank the gentleman for coming this morning and Rear 
Admiral Salerno and a good friend, Mr. Keeney. Welcome, and we 
look forward to your testimony.
    Admiral, you may begin.

     TESTIMONY OF REAR ADMIRAL BRIAN SALERNO, DIRECTOR OF 
  INSPECTIONS AND COMPLIANCE, U.S. COAST GUARD HEADQUARTERS; 
TIMOTHY R.E. KEENEY, DEPUTY ASSISTANT SECRETARY FOR OCEANS AND 
 ATMOSPHERE, NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION, 
                  U.S. DEPARTMENT OF COMMERCE

    Admiral Salerno. Good morning, Mr. Chairman and Ranking 
Member Filner and distinguished members of the Subcommittee. I 
am Rear Admiral Brian Salerno, Director of Inspections and 
Compliance at U.S. Coast Guard Headquarters. It is my pleasure 
to appear before you today to provide the Coast Guard's views 
on air pollution reduction from ships and ballast water 
management.
    In May, 2005, Annex VI to the International Convention for 
the Prevention of Pollution from Ships entered into force. The 
Coast Guard played a leading role in the development and 
adoption of Annex VI at the International Maritime 
Organization, IMO. At present, however, the U.S. has not 
ratified it. Annex VI represents the first time that air 
pollution and air quality issues associated with ships have 
been regulated internationally. It creates a foundation to 
build from as IMO parties seek to improve its effectiveness at 
reducing ship source air pollution.
    U.S. ratification of Annex VI is extremely important to 
furthering our interest in reducing maritime pollution and 
enactment of the implementing legislation is the final 
remaining major statement.
    Concerning ballast water management, the Coast Guard shares 
this Committee's concern with the significant environmental and 
economic damage caused by aquatic invasive species introduced 
through shipping. At this time, the Administration has not 
formed official views on the discussion drafts provided by the 
Committee. The comments provided in my written statement and 
those that follow represent the Administration's preliminary 
informal views.
    There is no question that the current legislative framework 
needs to be upgraded to move us to a greater level of 
protection. We believe that aquatic invasive species present a 
complex international problem which requires a comprehensive 
international solution. The IMO has agreed to the text for an 
international convention for the control and management of 
ships' ballast water and sediment.
    Because of the international nature of shipping, the 
Administration believes that the domestic approach must be 
compatible with the structure and framework of the 
international provisions. In this respect, a number of 
provisions in the discussion draft are problematic and others 
could actually delay reaching the goal of effective ballast 
water management. In general terms, the Administration prefers 
to see a standard that would encourage development of new 
technologies rather than being based on currently available 
technology. For example, we would like to use a standard to set 
a goal for developers to achieve fewer organisms per cubic 
meter of water.
    Senate Bill 363 closely tracks the approach in the 
convention, and the Administration is willing to support the 
approach taken in S. 363 with minor modifications. We recommend 
that this Subcommittee consider that approach as well.
    The Coast Guard has determined that a discharge standard 
for ballast water is the most expedient approach to approving 
appropriate technologies for use on board vessels. In 
conjunction with the discharge standard, the Coast Guard is 
working in partnership with EPA to develop test procedures for 
approving ballast water management systems and with the Naval 
Research Laboratory to validate and refine the procedures. We 
are also working with NOAA in facilitating the testing and 
demonstration of practical and effective shipboard ballast 
water management methods.
    Turning to the Great Lakes specifically, the Great Lakes 
ballast water regulations remain the most stringent in the 
world for restricting the discharge of unmanaged ballast water. 
However, for the Great Lakes, there is a justified concern 
regarding vessels that enter the lakes fully loaded with cargo 
and declaring no ballast on board, commonly referred to as 
NOBOB vessels. This is because the regulations for ballast 
water exchange do not apply when ships enter as a NOBOB. 
However, the risk of invasion remains due to residual 
freshwater and sediment in empty ballast tanks which are 
sufficient to sustain invasive species.
    To address this risk, in 2005, the Coast Guard announced 
new policy that encourages vessels that enter the Great Lakes 
as NOBOBs to conduct specific best management practices 
wherever possible. The Coast Guard and Transport Canada are 
cooperatively examining the degree to which industry is able to 
conduct these practices and their efficacy in reducing the 
risks of introducing aquatic invasive species.
    Until approved, alternative ballast water management 
methods are available. Consistent application of these 
practices should result in a significant reduction in the risk 
of introducing aquatic nuisance species.
    Thank you for the opportunity to provide comments on air 
pollution reduction from ships and ballast water management. 
The Coast Guard looks forward to working with Congress as we 
continue our ongoing efforts to safeguard the maritime 
environment. I will be happy to answer any questions that you 
may have.
    Mr. Gilchrest. Thank you very much, Admiral.
    Mr. Keeney?
    Mr. Keeney. Good morning, Chairman Gilchrest, Ranking 
Member Filner, Dr. Ehlers, and members of the Committee. I am 
Tim Keeney, Deputy Assistant Secretary of Oceans and 
Atmospheres at NOAA. Thank you for inviting me to testify on 
the Ballast Water Management Act.
    The Administration supports the goal of this legislation to 
provide for the management and treatment of ballast water, to 
prevent the introduction of non-indigenous or invasive aquatic 
species. The President's Ocean Action Plan recognizes the 
urgent need for ballast water management, and we remain 
committed to working with our Congressional partners to address 
this issue in a comprehensive way.
    The transfer of organisms from ballast water has resulted 
in the introduction and establishment of hundreds of aquatic 
invasive species into the United States. The consequences of 
these invaders are being felt from the Great Lakes to Maine to 
the Gulf Coast to the shores of California. In fact, every 
coastal State is experiencing this problem.
    The introduction of zebra mussels provided the initial 
impetus for coordinated Federal action on aquatic invasive and 
nuisance species and led directly to the passage of the Non-
indigenous Aquatic Nuisance Prevention and Control Act of 1990. 
Recognizing the pathway that brought zebra mussels to the 
United States can bring other species, the Act required that 
steps be taken to manage ballast water.
    In 1996, Congress passed the National Invasive Species Act 
which led to the creation of the Ballast Water Technology 
Demonstration Program by NOAA and the Fish and Wildlife 
Service. Since its inception, the program has spent over $13.2 
billion in support of 63 ballast water technology research and 
development projects. As our understanding of ballast water 
management as developed, the state of ballast water technology 
has also advanced. This is evidenced by fewer laboratory-scale 
projects and more full-scale demonstration projects on ships 
being funded by the program. In fact, now more than 50 percent 
are full-scale projects. We believe the program is a good 
example of how different agencies can work together to reach a 
common goal.
    In other research, NOAA's Great Lakes Environmental 
Research Laboratory led the first extensive biological 
characterization and assessment of risk association with the 
residual ballast water and sediment in ships. The Coast Guard 
used the assessment in issuing new policies for ballast water 
management of No Ballast On Board or NOBOB vessels entering the 
Great Lakes.
    NOAA would prefer the reauthorization of the Non-indigenous 
Aquatic Nuisance Prevention and Control Act but appreciates the 
Committee's attention to the ballast water issue. We want to 
work with you on the issue since it is an immediate, pervasive, 
and well known vector for the introduction of invasive species.
    I would like to highlight several significant concerns in 
the draft legislation that are addressed in greater detail in 
our written testimony.
    The IMO has approved the International Convention for the 
Control and Management of Ships' Ballast Water and Sediment. 
NOAA believes the domestic legislation including the Ballast 
Water Management Act should be compatible with international 
provisions such as the convention because of the international 
nature of shipping. For example, S. 363 closely tracks the 
approach in the convention, and the Administration is willing 
to support the approach taken in S. 363 if minor modifications 
are made. We strongly recommend the Committee consider this 
approach as well.
    A number of provisions in the proposed legislation could 
actually delay effective ballast water management. For example, 
one section requires surveys on the number of organisms in 
untreated ballast water and in exchange ballast water. However, 
several surveys have already been conducted in both these 
areas, and the results are available in published literature.
    The proposed legislation is also weaker than the IMO 
convention discharge standards. The Act only requires 
regulating the upper standard for organisms greater than 50 
microns. The convention standard includes organisms between 10 
and 50 microns, and organisms in this category include 
dinoflagellates that cause harmful algal blooms. In general, 
NOAA prefers to see a standard that addresses organisms down to 
10 microns and encourages development of new technologies.
    NOAA supports the Coast Guard's Shipboard Technology 
Evaluation Program, or STEP, and supports the bill of statutory 
authorization of that program. NOAA is concerned that the 
proposed legislation prevents ballast water technology 
demonstration programs at NOAA from supporting any projects 
other than the shipboard technology demonstration under the 
STEP program. Smaller-scale control projects are still needed 
before some promising technologies will be ready for 
demonstration on board ships.
    R and D projects are also needed to perfect monitoring and 
assessment technology to assure that organisms have been 
rendered non-viable and that compliance can be effectively 
monitored. The proposed document appears to prevent NOAA's 
ballast waster technology demonstration program from supporting 
either of these kinds of projects. These and other examples 
included in our written testimony indicate NOAA's difficulty in 
supporting legislation until these significant changes are 
made.
    To conclude, we only have to look at the spread of aquatic 
invasive species that have come to our shores through ballast 
water to realize we will be living with the consequences of 
past introductions for a long time to come. We are optimistic 
that the ongoing ballast waster research will lead to a number 
of promising technologies that will enhance our ability to 
prevent new invasions.
    NOAA welcomes the opportunity to work with the Committee 
staff to provide technical drafting and other assistance in 
order to address our concerns. Thank you again. I am happy to 
respond to any questions the Committee might have.
    Mr. Gilchrest. Thank you, Mr. Keeney.
    It appears that both your testimonies would prefer that our 
draft bill incorporated Senate Bill 363. I feel that is a 
pretty accurate statement.
    Mr. Keeney. That is correct.
    Mr. Gilchrest. Would Senate Bill 363 I am not familiar with 
it--more closely align with the international agreement at the 
IMO?
    Mr. Keeney. It would, Mr. Chairman.
    Mr. Gilchrest. Would the international agreement and Senate 
Bill 363 deal uniformly with ballast water in the Great Lakes 
or the Chesapeake Bay or the San Francisco Bay or any other 
port throughout the United States?
    Mr. Keeney. It will do that as well.
    Mr. Gilchrest. So for the exchange of ballast water that 
now goes on outside U.S. territorial waters that is for the 
purpose of bringing a ship into the Great Lakes, I guess the 
question is: How will Senate Bill 363 or even our draft bill 
deal with ships exchanging ballast water at sea or not 
exchanging ballast water at sea because of safety reasons?
    Then, that means that some ships may exchange ballast water 
after going into the Great Lakes, and some ships may not 
exchange ballast water if they are coming into the Chesapeake 
Bay. How will the international agreement or Senate Bill 363 
deal with that? That is a concern that I have.
    Admiral Salerno. Sir, the IMO convention would, in fact, 
phase out ballast water exchange after a number of years and 
replace it with a discharge standard which would limit the 
number of organisms per unit volume of ballast water. The 
technology for achieving that is still under development, but 
that is the basic construct.
    Mr. Gilchrest. That is the goal.
    Admiral Salerno. Yes.
    Mr. Gilchrest. Is that in Senate Bill 363?
    Admiral Salerno. That is the goal of the IMO provision. I 
believe that is reflected in 363.
    Mr. Gilchrest. Is that discharge standard still 10 
organisms greater than 50 microns?
    Admiral Salerno. The IMO standard is a weaker standard that 
what we would envision for ships entering the United States. We 
have not yet determined what the discharge standard will be for 
vessels entering the United States. That is currently under 
development. But, under the terms of the IMO convention, we do 
have the authority to set a more strict standard than may be in 
place internationally.
    Mr. Gilchrest. So countries can set stricter standards than 
the IMO agreement.
    Admiral Salerno. That is correct, sir.
    Mr. Gilchrest. The Senate Bill is similar to that, to allow 
a country to set stricter standards for their discharge. After 
a number of years, is there a set number of years that they 
would eliminate ballast water because of technology that will 
eliminate the invasive species in the ballast water?
    Admiral Salerno. Yes, sir, there is a phase-out provision 
in Senate 363 as well.
    Mr. Gilchrest. A phase-out for exchange of ballast water, 
is there a technology on the horizon that would enable us to do 
that, that you can point to?
    Admiral Salerno. Sir, the technology is still under 
development. We don't have any approved technology at present. 
In the STEP program, there are a number of applications which 
we are considering that look very promising to test prototype 
technologies on board ships, but currently there are no 
approved systems.
    Now, there are also systems being tested internationally, 
some that use chemical means, some that use filtration and so 
forth, some that use physical.
    Mr. Gilchrest. Are they in use right now?
    Admiral Salerno. There are some that are in use currently.
    Mr. Gilchrest. Do we have any that are in use?
    Admiral Salerno. None that are approved.
    Mr. Gilchrest. Mr. Keeney?
    Mr. Keeney. Mr. Chairman, I would just like to say that 
with regards to technology, NOAA has been involved for many 
years in the development and in the review of various different 
technologies. As I mentioned in my testimony, we are well 
beyond the proof of concept stage for a number of different 
technologies. We believe that if development efforts continue 
at the present rate, technologies meeting the IMO standard will 
be available by 2009 at least for some ships. Several 
technologies are already ready for field demonstrations, full-
scale tests.
    Mr. Gilchrest. What do you need in order to implement those 
full-stage tests?
    Mr. Keeney. I think we need to continue the existing 
program.
    Mr. Gilchrest. Do you need this legislation passed to do 
that?
    Mr. Keeney. We can continue the testing of that technology. 
I think what we are talking about today is setting a standard 
that the technology can aim towards.
    Mr. Gilchrest. Do you want in the legislation to set a 
standard, or would you rather us say that we accept the IMO 
standard of less than 10 organisms greater than 50 microns and 
we can eventually do better than that, some flexibility in the 
actual standard?
    Mr. Keeney. Well, NOAA believes that the correct standard 
is the standard that we negotiated at the Ballast Water 
Convention in February of 2004 which is .0 organisms per cubic 
meter greater than 50 microns and 0.1 organisms per milliliter 
for organisms between 10 and 50 microns, which again is the 
same and is the standard that we agreed to as a group going 
into the IMO negotiations.
    Mr. Gilchrest. I see. We may have a second round. I guess I 
was in time. I must be close to five minutes.
    I will yield to Mr. Filner.
    Mr. Filner. Thank you, Mr. Chairman.
    While I don't often agree with the Administration on a lot 
of things, I think your support of S. 363 is appropriate, and I 
think if we are going to get a bill this year, we ought to 
start with that.
    From my perspective for the Pacific Coast, with all this 
talk about the Great Lakes, let me bring in the Pacific Coast. 
Would you agree with my assessment that, number one, if you are 
going between two biological different ecosystems like 
California and Hawaii, we should not exempt the U.S.-flag ships 
from the ballast water treatment requirements?
    Admiral Salerno. Sir, we believe that ultimately we should 
not exempt those vessels, that there is a risk of transmission 
of aquatic nuisance from ecosystems within the United States. 
Currently, our regulations do not provide for ballast water 
exchange even for ships on a coastwise voyage unless they 
transit outside 200 miles.
    Now, in the example you cited, there is that opportunity to 
exchange ballast water beyond 200 miles, but on more domestic 
coastwise voyages, most ships do not transit outside 200 miles 
and therefore have the ability, under current regulations, to 
enter with that ballast water. Typically, they would discharge 
that ballast water in order to take on cargo. So that risk 
exists, and it is something that we would anticipate addressing 
with the discharge standard.
    Mr. Filner. I think that is the difference between S. 363 
and the draft coming out of this Committee.
    Secondly, we have a lot of ships that go from San Diego or 
other parts of California to Mexico and return, and they may 
not have enough time to treat all the water before they enter 
back in our port. Do you agree that there should be a 
designated ballast water exchange for such situations or 
landside water treatment discharge?
    Admiral Salerno. Sir, a designated ballast water exchange 
area is something that would be considered, but we don't have 
any specifics that I can offer you at this point. It is 
something that could be considered as part of the ballast water 
treatment.
    Mr. Filner. Under S. 363, I think you can.
    Do you want to add anything, Mr. Keeney?
    Mr. Keeney. Yes, Congressman Filner, just last week, NOAA 
hosted a conference in Seattle that looked at alternative 
exchange zones, and we would be willing to share with the 
Committee staff any information we get out of that session.
    Mr. Filner. I agree with the Chairman on the standards 
issue. I think we ought to have a higher standard than is 
proposed in the IMO regulations, and I think I heard you say 
you agree with that, both of you.
    Admiral Salerno. Yes, sir, that is correct.
    Mr. Keeney. That is correct. Mr. Filner, again, just to 
give you an idea, the standard that we went into the IMO 
negotiations with, that we still agree to, is 100 times more 
stringent than the IMO standard. So we are well beyond what we 
think is needed beyond the IMO standard.
    Mr. Filner. Let me just quickly ask you a question about 
the MARPOL Annex VI. In Annex V, ships are subject to it, even 
if they are just transiting through our waters, say going from 
Mexico to Canada off of San Diego. Aren't we concerned about 
the pollution coming from that ship to California equally as if 
they were on our shores? Is that clear? Did I hear you clear?
    Mr. Gilchrest. It is clear. It is clear to me. That was a 
good question.
    Admiral Salerno. Sir, I would like to maybe get back to you 
on that one. There may be some law of the sea issues there for 
vessels.
    Mr. Filner. I think I and Chairman Gilchrest would agree 
that we ought to have that authority in VI, similar as it was 
in V.
    Also, in giving the Coast Guard the authority to enforce 
air pollution standards, the Coast Guard, as I understand it, 
enforces Annex V even if that country of the foreign flag does 
not subscribe to the international treaty. Shouldn't we do the 
same for Annex VI? If they are in our waters but not a 
signatory to the treaty, shouldn't we enforce that?
    Admiral Salerno. Yes, sir. Generally, with all the annexes 
to MARPOL that we are party to, we would hold any ships from 
other nations, coming into our waters, accountable for those 
standards, regardless of whether they are parties to that 
convention.
    Mr. Filner. Is there anything that would diminish my State 
of California from establishing more rigorous air pollution 
standards in the proposed legislation?
    Admiral Salerno. Sir, to give you a more complete answer, I 
would like to consult with our EPA colleagues, but my 
understanding is that the rights of the States to impose more 
strict standards is preserved.
    Mr. Filner. I just want to bring that to the record, Mr. 
Chairman, to make sure we continue that practice.
    Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Filner.
    Dr. Ehlers?
    Mr. Ehlers. Thank you, Mr. Chairman.
    First of all, I have to register considerable 
disappointment with the IMO standards, and I am pleased to hear 
that you are both discussing far more stringent standards than 
the IMO. I totally agree with that.
    A simple question about scientific expertise: I am not at 
all familiar with the Coast Guard's scientific abilities. 
Admiral, can you give me a quick summary of what you have 
available to you to do this work scientifically?
    You mentioned the EPA a moment ago. Do you make use of 
their scientists, or do you have a strong scientific effort 
within your agency?
    Admiral Salerno. We do work with other agencies that have 
specific scientific expertise. The Coast Guard also has 
scientific experts on staff as well as a research and 
development center which provides scientific capability as 
well.
    Mr. Ehlers. Do you make use of NOAA's scientists?
    Admiral Salerno. We are working with NOAA in the 
demonstration projects, yes, sir.
    Mr. Ehlers. Mr. Keeney, do you believe you have sufficient 
scientific expertise within your agency to resolve these 
issues?
    Mr. Keeney. Mr. Chairman, of course, we do have significant 
scientific expertise within NOAA. We also try to take advantage 
of expertise through other organization. As you know, through 
Sea Grant and through our Great Lakes Environmental Research 
Laboratory and through our demonstration program, we have 
competitive grant programs that try to bring in top scientists 
from all over the Country. As I mentioned in my testimony, we 
have really worked with over 20 different technologies and have 
made some significant advances in many of them.
    Mr. Ehlers. Thank you.
    Just a little side note, my colleague, Mr. Hoekstra from 
Michigan who was here earlier, introduced a bill some years ago 
requiring treatment of ballast waters. This mirrored a bill 
that eventually passed the Michigan Legislature and is in 
effect.
    I recall someone affiliated with the shipping industry was 
on my doorstep the next day, saying, you can't do that.
    I said, why not?
    He said, well, it is far too expensive.
    I said, well, I am willing to listen to that argument. In 
fact, I am quite willing to say we shouldn't have those 
standards as long as we simply pass the law of making the 
shipping industry liable for any critters that get into our 
waters.
    He said, well, we couldn't possibly do that. It would be 
way too expensive.
    I said, that is my point.
    That is precisely what we face. This is a very, very costly 
problem for the United States and for the State Governments. If 
we think aquatic species are bad at $13 billion a year, the 
terrestrial ones are far more expensive, well over $100 billion 
a year. That is a lot of money. So I think we have a very 
strong base, not only ecologically but also financially for 
supporting very, very high standards for anything coming into 
this Country.
    Admiral, I am impressed with what you are saying and what 
you are trying to do, and that is refreshing to me because, 
frankly, I have been very disappointed in the performance of 
the Coast Guard up to this point.
    The Congress first passed a law in the early nineties and 
gave the responsibility to the Coast Guard, and absolutely 
nothing happened. In the mid-1990's, another law was passed 
which more explicitly put requirements on the Coast Guard; 
nothing happened. When I first introduced my bill dealing with 
this issue, I immediately had a visit from one of your 
predecessors trying to persuade me that we couldn't possibly be 
that stringent.
    I hope that you are really taking this to heart and really 
trying to establish decent standards. I, for one, and there are 
many in the Congress who feel the same way, question whether or 
not the Coast Guard should even be involved in view of their 
track record. And so, I hope you will work very, very 
diligently on this issue to try to overcome the perception that 
the Coast Guard has neither the interest nor the expertise to 
deal with this problem. I just wanted to get that off my chest.
    With that, Mr. Chairman, I will yield back.
    Mr. Gilchrest. Thank you very much, Dr. Ehlers.
    I don't know if this is Mr. Baird or Dr. Baird.
    Mr. Baird. Today, it is Dr. Baird.
    Mr. Gilchrest. Dr. Baird.
    Mr. Baird. First of all, I thank the Chairman for convening 
this, and I thank the panelists.
    An issue that is very important in my particular region 
right now, we are obviously very concerned about the ballast 
water and ultimately about zebra mussels infiltrating 
potentially the West Coast, but particularly prominent recently 
has been the proposal to establish a number of LNG terminals on 
the West Coast.
    I wonder if either of the panelists, I know you may not be 
prepared for this. I wonder if you have any insights into two 
things: one, ballast water issues vis-a-vis LNG ships, but two, 
how the regulatory structure of the sites' terminals would 
interface with any proposed regulations for ballast water.
    Admiral Salerno. Sir, regarding ballast water and LNG 
ships, the regulations that would apply to any ship would also 
apply to LNG ships. Typically, the LNG ships, when they arrive 
in the United States, are loaded, and then they would take on 
ballast water in the U.S. port to return back to their point of 
origin. So, it is not quite the same risk issue that we have 
with vessels that are discharging ballast water in our waters.
    Mr. Baird. It is your take then that the FERC siting 
process that was passed in the Energy Bill a year or so ago 
would not necessarily be impacted or would not necessarily 
override any ballast water discharge issues.
    Admiral Salerno. I am not as familiar with the FERC issue, 
sir, so perhaps we could get back to you on the record.
    Mr. Baird. I don't think it has been tested yet, but just 
for the record, I would say that this should be one of the 
factors that gets considered in the EIS, as far as siting LNG 
terminals, that we look at this issue in general.
    Admiral Salerno. I am told that it is being considered, 
sir.
    Mr. Baird. Being considered, meaning looking at this 
interface?
    Admiral Salerno. As part of the Environmental Impact 
Statement.
    Mr. Baird. Excellent, good, that is what I wanted to know.
    I thank the Chairman and yield back.
    Mr. Gilchrest. Thank you, Dr. Baird.
    Dr. Boustany?
    Mr. Boustany. Thank you, Mr. Chairman.
    I have a question for Mr. Keeney. Your testimony also 
states that the Administration prefers to see a standard that 
would encourage of new technologies rather than being based on 
current available technology. In light of your comment that 
developing technologies are not even ready for full-scale 
evaluation by the Coast Guard, shouldn't we start with an 
achievable standard and then ratchet it down as better 
technologies become available?
    Mr. Keeney. Congressman, we believe that the technology 
development is moving in the right direction and that, but for 
a standard, the technology development would be much further 
along than it is. So we believe that a standard actually can be 
very helpful in giving the developers of the technology a 
target to shoot for. Therefore, and because of the vast 
experience we have had with dealing with various technologies, 
we believe that they are well along the way to meet a strict 
standard, and we are confident that can happen, and we think, 
therefore, even though the technology may not be actually able 
to be applied today, that it could be ready when needed.
    Mr. Boustany. Thank you.
    Have existing ballast water treatment technologies been 
demonstrated to effectively remove or kill small organisms, 
bacteria, and viruses in the ballast water?
    Mr. Keeney. Yes, they have. There are several technologies 
that can kill organisms less than 50 microns. For example, 
ozone and nitrogen injection are currently being investigated. 
There also has been substantial research on the potential 
utilities of biocides, such as hypochloride which is used in 
sewage treatment facilities.
    Through the Ballast Water Technology Development Program at 
NOAA and the National Sea Grant College Program, NOAA is 
funding projects dealing specifically with technology to 
monitor treatment effectiveness.
    Mr. Boustany. Is there an estimate of the number or impact 
of unidentified invasive species that potentially fall into a 
smaller class size? Do we have any information this now?
    Mr. Keeney. I am not sure about numbers, sir, but harmful 
algal blooms are a category that do fall into that, and 
dinoflagellates do fall into that arena that we believe are 
very, very important with regards to their potential impact on 
water quality and human health.
    Mr. Boustany. Thank you.
    Could you comment on how the international community 
arrived at the standards that were established in the 
convention? Could either of you do that?
    Admiral Salerno. At the IMO, of course, the member nations 
get together in a committee format and hammer out the standards 
that they feel they can all live with. In this case, the result 
was not reflective of the U.S. position. As Mr. Keeney 
mentioned, we went in with a very aggressive proposed standard, 
discharge standard that was not what was ultimately adopted, 
but the success of this overall process is that we did retain 
the ability to establish a national standard under the 
conditions of the convention which is more strict than which 
may apply worldwide.
    Mr. Boustany. What data or observations were used to 
support standards that were established in the convention and 
the standards that were proposed by our U.S. delegation?
    Mr. Keeney. The standard that the U.S. went in there with 
was the result of a technical workshop sponsored by the 
National Academy of Sciences and basically represents a zero 
risk of species invasions.
    Mr. Boustany. Thank you.
    Mr. Chairman, that is all I have.
    Mr. Gilchrest. Thank you, Dr. Boustany.
    I am going to have to go, and I think Dr. Boustany is going 
to take the Chair, but I have one last quick question and Dr. 
Boustany will have a second round as we complete the questions 
on this first one.
    Regarding the standards that the U.S. went in with to 
recommend to the IMO and then the IMO adopted a certain 
standard, does the Coast Guard and NOAA, do you both agree? 
Does the Coast Guard and NOAA agree on the standard, or are 
there still differences of opinions on what the standard should 
be between the Coast Guard and NOAA?
    Is the IMO standard of less than 10 organisms greater than 
50 microns in size per cubic meter of ballast water, is that 
the standard at the IMO?
    Admiral Salerno. Sir, both of us would agree that the IMO 
standard is not stringent enough.
    Mr. Gilchrest. And you both agree that you want to be more 
stringent.
    Admiral Salerno. That is correct, yes, sir.
    Mr. Gilchrest. Do you both agree on how more stringent?
    Admiral Salerno. That is yet to be decided.
    Mr. Gilchrest. Yet to be decided.
    Admiral Salerno. We have a range.
    Mr. Gilchrest. So we can decide that, can't we?
    Admiral Salerno. You certainly can, yes, sir.
    Mr. Gilchrest. But we want to be more strict than the 
standard right now at IMO.
    Admiral Salerno. We do want to be more strict than the IMO 
standard. What is currently taking place is that we are 
evaluating a number of different standards within the range 
that Mr. Keeney mentioned, looking at the economic and the 
environmental aspects of that as part of a programmatic 
Environmental Impact Statement. Through that process, we will 
be able to better determine what the most appropriate standard 
would be.
    Mr. Gilchrest. I see.
    I yield to Mr. Filner and turn over the Chair to Dr. 
Boustany.
    Mr. Filner. I think just for the record, I think the U.S. 
at that meeting proposed 0.01 organisms per cubic meter of 
water. The delegation had some standard, right?
    Admiral Salerno. That is correct, sir. It was a range, the 
0.01 to 1, if I understand correctly.
    Mr. Keeney. Actually, I believe, Mr. Filner, we actually 
did agree that the standard should be 0.01 organisms per cubic 
meter, greater than 50 microns, and 0.01 organisms per 
milliliter for organisms between 10 and 50 microns, and that 
was agreed to by the delegation.
    Mr. Gilchrest. I want to thank Dr. Filner for that 
question.
    Now, here is Dr. Boustany.
    Mr. Boustany. [Presiding] Before we get to the second round 
of questions, we will recognize Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you, Mr. Chairman.
    Very briefly, it may sound like kind of a weird thing, but 
in Florida, the fifth largest port in Florida is the Miami 
River. As you all know, those are actually mom and pops. It is 
not a port. It is a number of small businesses.
    I want to talk a little bit about the air emissions portion 
and probably the other part as well. How would that affect 
those?
    We are talking about mostly small freighters that go to the 
Caribbean. A lot of them are very small. These new standards, 
how do they deal with that situation? Does it treat them all 
the same, including the case of small little freighters that 
are in some cases one freighter that is owned by one company or 
one individual that then docks in the Miami River?
    It is not a huge port facility. It would be a small 
business. How do you deal with that? Does it affect that 
situation at all, or does it have no effect on them?
    Admiral Salerno. Regarding the air pollution from the 
smaller ships, sir, the convention itself applies to ships of a 
certain size. Many of the ships in the Miami River would be 
non-solace vessels. However, we would still, under our domestic 
legislation, impose standards on vessels visiting our ports.
    Mr. Diaz-Balart. Thank you, Mr. Chairman.
    Mr. Boustany. We will start off with the second round of 
questioning now. Mr. Filner, you are recognized.
    Mr. Filner. I just want to clarify again for the record my 
one question, Mr. Chairman.
    The IMO adopted a standard for discharge a thousand times 
higher than the U.S. proposal, and the U.S. proposed 0.01 
organisms per cubic meter. I assume you would support something 
in that range and not the IMO standard.
    Mr. Keeney. That is correct, Congressman Filner. Actually, 
it was a hundred times less stringent than the U.S. position, 
and we would certainly support something within that range. 
What our negotiating position was at the IMO convention was on 
the one side; on the other side was what the IMO standard 
eventually ended up being.
    Mr. Filner. I don't mean to argue with you on a hundred 
versus a thousand, but if our proposal is 0.01, isn't 10 a 
thousand times that?
    Mr. Keeney. I am sorry. You actually are correct, of 
course. Sorry about that.
    Mr. Filner. We have too many Ph.Ds up here in these seats 
to try to get away with that.
    Thank you, Mr. Chairman.
    Mr. Boustany. Dr. Ehlers, you are recognized.
    Mr. Ehlers. Thank you, Mr. Chairman.
    First, a short one, the California U.S. District Court 
recently ruled that the EPA does have responsibility for 
aquatic invasive species under the Clean Water Act and also in 
relationship to ballast water. How is that going to affect your 
work?
    It is being appealed, by the way, to the Ninth Circuit, but 
I suspect they will uphold it. What impact do you expect this 
will have?
    Admiral Salerno. Sir, if I may, the court decision would 
not change the Coast Guard's authority to approve ballast water 
treatment systems, and as mentioned, we are working with EPA in 
that approval process.
    Mr. Ehlers. Is that your opinion, too, Mr. Keeney?
    Mr. Keeney. That is correct.
    Mr. Ehlers. Next, getting on to the NOBOB vessels, the 
current law requires that all vessels equipped with ballast 
water tanks must carry out ballast water exchange prior to 
entering U.S. waters. However, the Coast Guard exempts vessels 
that report no ballast on board. Why and how can you exempt 
them under the current law because the current law doesn't say 
all vessels with ballast water? It says equipped with ballast 
water tanks which includes all of them.
    Admiral Salerno. Sir, the way the regulations are 
structured, if there is no ballast on board, a ship coming 
across would not have any ballast to exchange. What the 
guidelines that we have issued propose and suggest to the 
shipowner is that the conduct flushing of those tanks, so that 
although it is not an exchange, it does rinse out the tanks and 
remove, to the greatest extent possible, any residual organisms 
or sediments that are in those tanks. That is not a regulation. 
It is a policy which I mentioned earlier is being reviewed in 
conjunction with our Canadian colleagues. What we have seen so 
far is that there is a fairly high rate of compliance by the 
shipowners.
    Mr. Ehlers. That concerns me a great deal because that 
especially affects the Great Lakes because they may, in the 
course of their travel through the Great Lakes, take water in 
and discharge water. So I really think it should be part of the 
regulations rather than simply a guideline. A guideline doesn't 
guarantee it is going to happen.
    Admiral Salerno. Yes, sir, we would agree. The guidelines 
are a interim step.
    Mr. Ehlers. When do you expect to change the regulations?
    Admiral Salerno. Sir, we are really just now looking at 
what is feasible, so I don't have an exact date.
    Mr. Ehlers. I would guess if it is not done soon, you are 
likely to face suit from the environmental organizations, too, 
because it is very clear in the law that it says all vessels 
equipped with ballast water tanks, not just those that are 
carrying water.
    The second issue is, of course, the one I mentioned with 
the Great Lakes. This presents a huge problem in the Great 
Lakes if they are not actually examined. Do you just take the 
captain's word for it when that ballast water has been 
exchanged, or do you run some tests on the ballast water to see 
what type of water is in there or what type of organisms are 
present?
    Admiral Salerno. The ships are required to maintain records 
which we do verify, and we also have the authority to test 
ballast water and can determine the salinity of the ballast 
water.
    Mr. Ehlers. I would suggest that would be very good for you 
to at least take samples from every ship. You may not have the 
money or the time to test every one, but if you take samples, 
at least the shipowner knows and the captain knows that there 
is a high probability that they be tested.
    I don't think you can distinguish between ballast water and 
no ballast water because of the large number residual organisms 
in the tank. I think the have to be treated equally. I would 
encourage you to begin that as soon as possible because I am 
sure some environmental group is going to come up with a 
lawsuit which you will lose, and that takes a lot of time, 
money, and effort away from your work if you have to do that.
    With that, I yield back.
    Mr. Boustany. I thank the gentleman.
    One final round of questions here: The draft bill would 
direct the Coast Guard to utilize the existing STEP program to 
encourage onboard testing and evaluation of experimental 
ballast water management systems. What have been the major 
difficulties in activating the program and commencing testing 
aboard of oceangoing vessels?
    Admiral Salerno. Sir, we have had five applications for the 
STEP program. The first two were very incomplete, and we could 
not proceed any further with them. The remaining three look 
very promising. So we envision that we will have some prototype 
testing under the STEP program in the near future.
    Mr. Boustany. I thank the Admiral.
    Would a STEP program at full participation levels provide 
sufficient data over a period of one or two years perhaps to 
make a determination that experimental ballast water management 
systems are functioning at a sufficient level to begin the 
establishment of ballast water discharge standards as provided 
under the draft bill?
    Admiral Salerno. Yes, sir, the STEP systems would provide 
valuable information as well as other prototype systems that 
are being evaluated as part of the NOAA program.
    Mr. Boustany. I thank the Admiral. That is all I have.
    Mr. Filner?
    With that, thank you, gentleman. We appreciate your 
testimony and your answers to the questioning.
    We will proceed now with the second panel.
    Mr. Ehlers. May I just make a comment while we are going 
through the change here? I just want to comment that there is a 
serious proposal floating around to close the Great Lakes, to 
close the St. Lawrence seaway, I should say, to any shipping. I 
don't know why it is being seriously considered, but it is a 
serious proposal being entertained because a study has shown 
that the cost of the invasive species is greater than the net 
income to the shipping industry. They are contesting that, but 
I want to get that statement on the record. Thank you.
    Mr. Boustany. Let me begin by welcoming our second panel. 
First, we have Ms. Catherine Hazlewood, Senior Policy Advisor 
with the Nature Conservancy; Ms. Kathy Metcalf, Director of 
Maritime Affairs, Chamber of Shipping of America; and Mr. 
Donald O'Hare, Vice President of the World Shipping Council.
    Welcome.
    We look forward to your testimony. Mr. O'Hare, you may 
begin.

 TESTIMONY OF DONALD L. O'HARE, VICE PRESIDENT, WORLD SHIPPING 
   COUNCIL; KATHY J. METCALF, DIRECTOR OF MARITIME AFFAIRS, 
CHAMBER OF SHIPPING OF AMERICA; CATHERINE L. HAZLEWOOD, SENIOR 
POLICY ADVISOR, GLOBAL INVASIVE SPECIES INITIATIVE, THE NATURE 
                          CONSERVANCY

    Mr. O'Hare. Ranking Member Filner and members of the 
Committee, we appreciate the opportunity to speak to you today 
on these critical environmental issues that have been very 
important to the shipping industry for the past five to eight 
years.
    My name is Donald O'Hare. I am Vice President of the World 
Shipping Council, a non-profit trade association representing 
international ocean carriers. We were established to address 
public policy issues of interest to the international liner 
shipping industry. Our members include the full spectrum of 
ocean carriers from large container and roll-on/roll-off 
carriers to car carriers. Last year, we carried approximately 
93 percent of U.S. imports and exports or approximately $500 
billion worth of American commerce.
    The World Shipping Council and the Chamber of Shipping of 
America, from whom you will be hearing shortly, are both 
members of a very large industry coalition which represents the 
carriers as well as maritime labor. For five years, this 
coalition has been advocating ratification of the MARPOL Annex 
VI treaty regulating vessel air emissions and seeking an 
effective ballast water management system.
    In 2004, the report by the U.S. Commission on Ocean Policy 
raised the awareness level, both in Government and the private 
sector,, of the fragile nature of our oceans and coastlines. We 
applaud this Committee's leadership in dealing with these two 
issues of critical importance to the long term well-being of 
those invaluable resources.
    Mr. Chairman, since the Chamber of Shipping of America and 
the World Shipping Council are both members of this industry 
coalition, I will focus my remarks primarily on MARPOL Annex 
VI, and Ms. Metcalf will focus hers on ballast water 
management. We are in harmony on all of those issues, and the 
members of both of our organizations represent the vast 
majority of vessels coming in and out of U.S. ports.
    We thank you for holding the first Congressional hearing, 
Mr. Chairman, on implementing legislation for the MARPOL Annex 
VI treaty which internationally regulates air emissions from 
large oceangoing ships. As the Chairman pointed out in his 
opening statement, the Senate gave its advice and consent to 
ratification of the treaty this past April, and it is 
appropriate, we feel, that Congress enact the implementing 
legislation during this session.
    Shipping is an inherently international business with more 
than 30,000 vessels flying the flags of more than 100 countries 
and serving the commerce of virtually every nation of the 
world. International regulation of vessel air emissions is a 
critical and timely issue, particularly here in the United 
States and in other major trading countries which host large 
numbers of vessels each year in their ports and waters. 
According to the U.S. Maritime Administration, commercial ships 
made more than 55,000 calls at U.S. ports last year.
    U.S. ratification of MARPOL Annex VI will be a major first 
step toward improving vessel air emissions and air quality at 
U.S. ports and in U.S. waters.
    We would like to provide some brief background on MARPOL 
Annex VI for the Committee.
    The treaty is the sixth annex of the International 
Convention for the Prevention of Pollution from Ships. It was 
adopted by the International Maritime Organization in 1997 
after five years of negotiation in which the United States 
played a leadership role. Annex VI sets limits of sulfur oxide 
and nitrogen oxide emissions from ship exhaust and prohibits 
deliberate emission of ozone-depleting substances. The treaty 
also provides for the establishment, through the IMO, of Sulfur 
Emission Control Areas or SECAs with stricter sulfur control.
    In order for the treaty to enter into force, 15 countries 
with at least 50 percent of world merchant tonnage needed to 
ratify. That threshold was met in May of 2004, and the treaty 
entered into force in May of 2005. This provided the incentive 
for other countries to ratify, and as of June 1 of this year, 
35 countries with more than 70 percent of world tonnage are 
parties to the treaty, including most of the United States' 
major trading partners.
    Here in the United States, two important things happened 
regarding this issue in 2003.
    In January, the Environmental Protection Agency published a 
final rule establishing vessel air emission standard for U.S.-
flag vessels. The standards mirrored Annex VI standards. The 
rule also committed EPA to establish stricter standards for 
U.S.-flag ships by 2007 and to seek comment on its potential 
regulatory authority over non-U.S.-flag at the same time. EPA 
also recognized in the rule that the Administration was seeking 
ratification of Annex VI and that they, EPA, would work at the 
IMO to develop stricter standards that would be accepted and 
applied internationally to all ships.
    In May, the Bush Administration sent Annex VI to the Senate 
for its advice and consent. This was done with the full support 
and encouragement of the maritime industry. The Administration 
also began an interagency process to draft implementing 
legislation for the treaty.
    These two efforts were not coincidental. The Administration 
recognized the need for an international solution to this 
issue.
    It remains an open legal question as to the scope of EPA's 
authority to regulate engine emission standards for foreign-
flag ships which make over 90 percent of the vessel calls at 
U.S. ports. Accordingly, if the United States wishes to have 
clear and certain legal authority over ships of all registries 
and have a meaningful impact on air quality in our ports and 
waters, we must ratify MARPOL Annex VI.
    As I stated earlier, the Senate gave its advice and consent 
in April. However, the Administration has made it clear that it 
will not deposit the U.S. instrument of ratification until the 
implementing legislation is enacted.
    Work has begun at IMO to develop stricter SOx and NOx 
standards and to regulate emission of particulate matter. While 
the U.S. is participating in that process, we will have no real 
influence over final decisions and no vote for or against the 
new standards unless the U.S. is a party to the treaty. U.S. 
ratification of MARPOL Annex VI is essential to enable the 
United States to work with our trading partners, to strengthen 
the treaty, and establish meaningful international air emission 
standards for the first time.
    Mr. Chairman, we fully recognize that the current standards 
in Annex VI need to be updated in order to bring about 
meaningful improvement in vessel emissions. It is important for 
the United States Government to be an effective participant in 
developing those standards which can only happen if our trading 
partners know that we will implement those standards as a party 
to the convention.
    The Council and our coalition partners have supported the 
Administration's draft implementing legislation for Annex VI 
which was sent to Congress last October. We understand that 
this draft was achieved after extensive interagency discussion 
and compromise.
    We have reviewed your Committee's proposed amendments to 
that draft bill, which primarily relate to agency jurisdiction, 
and we are neutral on them. Our industry has consistently 
remained neutral on matters of Government agency jurisdiction 
in environmental matters. Our concern, however, is that such 
jurisdictional issues could delay the enactment of this 
important legislation and thus the U.S. ratification of MARPOL 
Annex VI.
    We urge the Subcommittee to send this bill to the full 
Committee as soon as possible, so that it may take action 
before the August recess. We believe it is important to leave 
time to resolve any differences which may exist between the 
House and the Senate or between the Congress and the 
Administration, so that the legislation can be enacted this 
year and the treaty ratification process can be completed.
    We thank the Committee for the opportunity to present our 
views on vessel air emissions, and Ms. Metcalf will present the 
industry coalition views on ballast water management. Thank 
you.
    Mr. Boustany. Thank you, Mr. O'Hare.
    We are expecting a vote probably sometime in the next 15 
minutes. So I will ask you to try to stick to the five-minute 
rule, and we will try to get some questioning going. Thank you.
    With that, Ms. Metcalf, you may proceed.
    Ms. Metcalf. Thank you, Mr. Chairman and members of the 
Subcommittee.
    Dr. Ehlers, it is always good to see you. I think we have 
been seeing each other for about the last 10 years on this 
issue.
    I am about to do something that I will apologize in advance 
for, but I am hopeful that it will be of benefit to the members 
and to the Subcommittee in doing this. I am throwing my 
testimony right out the window, what I was going to say to you, 
and try and restructure it off the cuff.
    Excuse me, sir?
    Mr. Filner. Have those papers been tested for 
microorganisms that you are going to throw away?
    Ms. Metcalf. Well, the critters, yes, sir.
    I noticed a certain theme running through the questions 
that you provided the first panel, and I would like to 
hopefully address those aspects to your satisfaction.
    Very briefly, my name is Kathy Metcalf. I am testifying 
today on behalf of the Chamber of Shipping of America.
    With all due respect and to shorten our testimony time, 
everything he said about MARPOL Annex VI, we agree with. 
Certainly, to enable the United States to keep its leadership 
role at IMO and making more stringent air emission reductions 
for marine vessels and to allow the U.S. EPA to begin to 
construct Sulfur Emission Control Areas within the United 
States, it is imperative that the U.S. become a party. So that 
is all I will say very quickly on Annex VI.
    There is a mantra that the coalition has had for a number 
of years relative to the ballast water issue. It is no surprise 
to most of the folks whom we have worked with, but it can be 
summarized in one simple sentence: We need a national ballast 
water program, and we need it yesterday.
    The industry from time to time has been portrayed as 
unwilling to take action. I am not suggesting that there were 
not members of the industry that were slow to move as were 
other aspects. What I will tell you is that, as of right now 
with 27 member companies, we have five companies that have 
onboard shipboard systems that are under test. They have not 
been approved under STEP because the administrative part of the 
program and the approvals and the package that you have to 
submit isn't there. We have one individual company that has 
spent over $5 million on testing an ozone system aboard a West 
Coast tanker. So there truly is a commitment by the majority of 
the industry to solve this problem.
    The mantra that we have created for years is as follows: We 
would like to see an international system. We need an 
international system because, unfortunately, we don't live in 
the cocoon of our own coastal waters. We would like the 
national program to be as consistent with an international 
framework as it possibly could be, and we believe that recently 
we have gone on record and testified in support of S. 363 
which, as was indicated by the earlier panel, very closely 
parallels the IMO convention.
    There are some areas of concern, the standard not the least 
of which, but I would also suggest to you in the discussions 
that you have, and I have said a number of times, the standard 
can be set at zero or a million as long as there is a realistic 
pre-review process before that standard is implemented. We 
don't know what we can do yet with technology, and that is the 
step we need to take.
    We also know we need to do something, about what is the 
less than satisfactory concept of ballast water exchange. That 
is what is creating a lot of the no deviate and delay issues. 
That is what is creating a lot of why we need a coastwise 
exemption issue. As an example, a company on the West Coast has 
estimated that on a one-week coastal trip, they will add one 
additional day to comply with the new California State 
regulations at $50,000 a day charter hire on an average. That 
is about $2.4 million a year for one ship. Multiply it by the 
number of ships out there, and that gets fairly pricey.
    What my position is on this is that we don't want ballast 
waste exchange. We want to find a treatment solution, and that 
is what we are committed to doing. We have worked closely with 
and it has been our honor to work with the U.S. delegation at 
MEPC, and we support ratification of the ballast water 
convention, acknowledging that each country can make more 
stringent provisions, which worries us but it is something we 
are going to have to live with because we need a structure, 
both internationally and nationally.
    We need more explicit, rather than less explicit, 
legislation. The legislation that is proposed, we support most 
of the concepts in that, but we are concerned that there are a 
number of issues that are missing in that bill that we think 
the synthesis of that bill with 363 could be helpful.
    I will wrap up very briefly, Mr. Chairman.
    There are two very big points of contention. One is 
preemption. Right now, we have a number of State programs that 
are at odds, one with the other and with the IMO convention and 
with the Federal program. A shipmaster that wants to comply 
needs a staff of attorneys to try and figure out, well, at this 
port, I have to do this, but at this port, I have to do that.
    We believe and support the creation of a strong, robust 
Federal program that is the program this Nation employs in its 
waters without other State programs diverging from that.
    We need a quantitative standard in the legislation. The 
NEPA analysis that is involved with the creation of an 
environmental standard by regulation can take five to seven 
years, I am told, but if it is contained in the legislation, it 
is far shorter.
    The last issue I would like to just briefly touch on is the 
issue associated with the California court case. The appeal 
process is not started. The remedy order is still pending, last 
that I know. We believe that there should be language in there 
that specifically carves out ballast water discharges from 
ships under the enacted statute which we hope will have the 
markings of all of you who have distinguished yourselves in 
leadership on this issue.
    Lastly, Mr. Ehlers and Mr. Gilchrest, this bill that has 
been out there, we do not object to a comprehensive aquatics 
bill. Our only concern with that and the similar S. 770 over in 
the Senate is the budgetary potential delays associated with 
budgetary issues which we will leave to the experts to deal 
with. Certainly, to take the provisions of this bill, S. 363 
and to use that as the ballast water portion of a comprehensive 
bill would be certainly endorsable by the industry.
    Thank you.
    Mr. Boustany. I thank you.
    I will assure all three witnesses that your full testimony 
will be included in the record.
    Ms. Hazlewood, you have been waiting patiently. You may 
proceed.
    Ms. Hazlewood. Thank you. I tend to speak quickly, so maybe 
that will come in handy today.
    Good morning. I am Catherine Hazlewood, a Senior Policy 
Advisor with the Nature Conservancy's Global Invasive Species 
Initiative.
    I wish to thank the Subcommittee for its consistent support 
of legislation to prevent new invasions from aquatic invasive 
species. The Nature Conservancy has previously endorsed both 
the National Aquatic Invasive Species Act as well as the 
Aquatic Invasive Species Research Act, legislation introduced 
with significant leadership and support from this Subcommittee. 
So we thank you for your efforts on that.
    We additionally welcome today's opportunity to comment on 
prospects for more targeted proposals to look at invasive 
species from ships' ballast water. The Conservancy has not 
taken a position on the draft bill to implement MARPOL annex 
with regard to air pollution, and so I will focus my comments 
on the draft ballast bill.
    I appreciate your staff's collaborative efforts to address 
this issue, and we look forward to providing continued 
assistance.
    As you may know, we are an international non-profit 
organization, dedicated to protecting biological diversity. 
While we own and manage a large, private network of nature 
preserves in the world, in fact, the largest private network in 
the world, we recognize we cannot achieve our mission simply 
through site-based efforts alone. For this reason, about five 
years ago, the Conservancy created the Global Invasive Species 
Initiative within our organization to create a core team of 
specialists who could help enhance our own capacity to prevent 
invasive species and work to advocate for better policies to 
help us prevent them. We do so through a combination of 
advocacy, through collaborative efforts with industry, through 
site-based management on our own preserves, and through 
promotion of research and development.
    As the Subcommittee well knows, invasive species pose an 
imminent and growing threat to our freshwater and marine 
biodiversity in the world. I won't tell you the things that you 
already well know. In fact, I would like to take the 
opportunity to speak to some of the issues that have been 
raised by previous people testifying today.
    Broadly speaking, I want to touch briefly on the issue of 
the standard. I will submit, when I first saw the standard 
proposed to IMO, I looked at it thought, oh my God, that is 
page of numbers, and I promptly called four different 
scientists with different agencies. I then called ballast 
management technology vendors. I then called industry.
    I said, so, what do you think? It looks like a lot of 
numbers to me, and it seems like they have looked at the 
organisms, and it seems like they have looked at the right 
indicators. Does that make sense?
    Then I heard the story that what was going into IMO and 
what came out of IMO, they simply moved the decimal point three 
places. While the science going into the IMO might have been 
intelligent to a lawyer's mind, the science coming out of the 
IMO might not have made as much sense.
    I think to some extent, similarly with industry, we thought 
that if you would like to set a numeric standard as a floor in 
your legislation, then we would encourage a review process to 
make sure it is the right standard. Where we probably differ 
from industry a bit is that we would like to ensure a review 
process prior to the establishment of the numeric floor, and 
the review process should detail that technology which moves 
forward forces improvement over time. We simply don't know our 
current technological capacity to address invasive species, but 
it seems that we need to make improvements on this important 
issue.
    I recognize industry's need for some consistency in their 
economic constraints, and so we would welcome perhaps 
consideration of the factors that the Agencies should consider 
in reviewing the standard, including economic factors.
    Secondly, I would like to ask the Committee to consider 
addressing a few additional sources of shipboard invasive 
species, such as NOBOBs and ships engaging in coastal traffic. 
As Mr. Keeney mentioned earlier today, NOBOBs are posing a 
problem with our Great Lakes where about 80 percent of the 
ships currently entering the Great Lakes do so under this 
regulatory exemption. These ships do carry residual ballast 
water, and our thought is that they could be subject to ballast 
management measures without imposing significant delays in 
their voyage time or significant technology expenses.
    We would urge the Subcommittee to continue a lot of the 
staff's efforts in looking at this issue. We commend the staff 
for some prior work on this issue, and we suggest moving ahead 
quickly on this issue.
    Similarly, it has been previously mentioned, the issue of 
coastwise traffic. We would suggest including coastal traffic 
in the draft ballast bill. We recognize that S. 363 does 
include language that we would recommend on coastal traffic and 
that we would encourage your incorporation on this issue. On 
the West Coast, one of the greatest problems facing the 
Northwest Coast are the ships that enter first into San 
Francisco Bay and then continue up the coast. The San Francisco 
Bay is overrun with about 260 different invasive species, and 
many of these species then are spread up the West Coast.
    Lastly, I would like to touch very briefly on the two 
controversial issues that I recognize were mentioned, I thought 
very well, by Ms. Metcalf's remarks.
    The issue of State preemption, my personal opinion is that 
State preemption comes up where States are faced with the 
prospect of, in their view, settling for a Federal program that 
may not afford them adequate guarantees of moving ahead on this 
issue. For example, I heard from our staff in Washington that 
they would be potentially concerned about moving forward with 
this legislative proposal because it includes a coastwise 
exemption. Since the Washington State law deals with coastal 
traffic, they would prefer to be able to continue with their 
State law.
    I think that if the Federal proposal raised the bar high 
enough, this would alleviate States' concerns.
    Additionally, I cannot speak to the litigation specifically 
since I am not a litigant at this time, working for the Nature 
Conservancy, but I would like to suggest that I think here, 
too, this is an issue that needs to be addressed in 
legislation. In my mind, the States and environmental groups 
that have supported Clean Water Act application of this issue 
have done so largely out of frustration at both the EPA and 
Coast Guard's inadequacy in dealing with these issues. They 
wish to bring all available Federal authorities to bear on the 
situation.
    I would encourage the Committee to think very carefully 
about exemptions to the Clean Water Act and to just continue to 
work through to figure out what are the tools available under 
the Clean Water Act that we would like to emulate in further 
Federal legislation. These include tools like adequate State 
involvement through delegated programs, even citizens who do 
evaluation and user fees. I think these are all tools that are 
critically important and could be brought to bear on this 
issue.
    In conclusion, again, I welcome the leadership demonstrated 
by the Subcommittee over the years in looking at this issue. I 
hope the Subcommittee will take immediate action on the NOBOB 
issue. We look forward to continued collaboration with your 
staff and other stakeholders in developing the larger 
legislative proposal to address ballast management from ships.
    Thank you.
    Mr. Boustany. We thank you.
    Dr. Ehlers, you are recognized.
    Mr. Ehlers. Thank you, Mr. Chairman.
    I have several comments and questions. First of all, Ms. 
Metcalf, I really appreciate your testimony and I hope you 
don't understand my earlier comment to be critical of the 
shipping industry because that occurred at the very first 
introduction of the first bill, and I have worked with the 
shippers or tried to.
    I guess my one concern is, though, that I think it would 
have been very, very helpful to have strong support from your 
community on my bill to do the research. Then your shipowners 
wouldn't have to be spending $5 million doing it. I would hope 
the Federal Government would be funding that research and 
working together with the shipping industry. Unfortunately, it 
is water over the dam, but had that bill been passed when first 
introduced, most of the questions we still have would have been 
resolved, at least the scientific questions, and perhaps we 
would have had a better result at the IMO.
    I believe it is absolutely essential that we come to a 
uniform standard for the shipping industry. I know from my 
years in Government that the worst thing you can have is to 
have multifaceted regulatory Agencies, all of whom adopt 
different rules in different ports. You have to know what you 
are dealing with. If the business community can't know what the 
rules are, it leads to critical uncertainty and expense. So I 
very much appreciate your testimony and your comments.
    I have a couple questions for Ms. Hazlewood. Your testimony 
states that one new invasive species is established in the 
Great Lakes on average every eight months. Has that rate 
decreased since the establishment of ballast water exchange 
requirements in the Great Lakes?
    Ms. Hazlewood. It has not, that I know of, decreased, and I 
don't know of recent studies in the last couple of years that 
would speak to that issue. Just looking at the curve as it 
represents maybe the last 40 years, the rate continues to 
curve, more or less. It has not increased in part because the 
new traffic coming into the Great Lakes hasn't had a corollary 
increase. It seems to be about leveled off over the last five 
to ten years.
    Mr. Ehlers. You also note that monitoring and rapid 
response capabilities are critical to minimize the spread of 
invasives once they are introduced. What efforts are you aware 
of that are currently in place to monitor coastal ecosystems to 
identify new introductions of invasive species before they are 
completely established? What do we have going on now?
    Ms. Hazlewood. I would be happy to follow up in greater 
detail with your staff on the variety of programs. I admit to 
only knowing probably a few areas of current partnership 
between the Nature Conservancy and Federal Agencies to provide 
monitoring on some of the projects that we work on together.
    For example, in Mr. Gilchrest's District, we have a nutria 
monitoring project and eradication project, and it is hoped 
that with continued Federal funding, that project will be 
successful in eradicating nutria in the Delmarva Peninsula.
    In Washington, we have worked to provide early detection 
and monitoring capacity to the State Wildlife Agency in 
monitoring for spartina, an invasive weed in Willapa Bay, and 
based on the monitoring, we were able to help the State in 
developing an early detection and rapid response fund, an 
authority that would allow the State to successfully try to 
eradicate that weed as well.
    In other areas, I believe that success really is difficult 
in the aquatic environment simply because we don't have the 
same ability to monitor them as easily as we might on land. For 
that reason, I have admired and supported Mesa's earlier 
provision of increased Federal capacity to cooperate with 
States in early detection and rapid response efforts, and I 
think that is a critical component of legislation that we would 
greatly support.
    Mr. Ehlers. Thank you.
    Mr. O'Hare, I just want to comment again and give my 
sympathy to your industry in terms of the emission problem, 
exactly the same thing that I have said about the invasive 
species, that business and industry need the certainty of 
regulation and also fair and equitable application of the 
regulations. I can certainly understand your frustration up to 
this point, and I hope we can clarify that even though some of 
that is outside the bailiwick of this Committee.
    Mr. O'Hare. Can I respond to that?
    Mr. Ehlers. Yes, please.
    Mr. O'Hare. Thank you for those thoughts, Congressman 
Ehlers.
    Just to emphasize our industry's position, we are very 
eager to see stricter standards brought about through MARPOL 
Annex VI. We want international regulation. We would very much 
like to see a low sulfur standard, so that the energy companies 
produce low sulfur fuel that becomes commercially available on 
a worldwide basis. We would very much like to see low nitrogen 
and particulate matter levels, so that stack technology and 
emulsion technology and those types of new developments are 
speeded up.
    We appreciate your thoughts, and we look forward to a very 
improved MARPOL Annex VI in the coming years. Thank you.
    Mr. Ehlers. Thank you.
    I yield back the balance of my time.
    Mr. Boustany. Mr. O'Hare, Annex VI requires facilities to 
provide receptacles to receive ozone-depleting substances and 
solid waste from exhaust cleaning systems, and the draft bill 
would implement this international requirement by requiring 
such facilities at U.S. ports and terminals. Do any of our 
ports in our Country have such pollution receptacle facilities?
    Mr. O'Hare. They have. My understanding is they do have 
reception facilities but not necessarily for the kinds of 
chemicals and the kinds of pollutants that we will be talking 
about that will come from the types of technology that are 
being developed to eliminate the nitrogen and the sulfur. They 
have reception facilities to deal with some of the other MARPOL 
annexes, dealing with perhaps noxious liquids and other various 
chemicals that are byproducts of other processes but not 
necessarily those that are going to come out of this annex.
    So that is going to be something that will have to be 
developed. It will have to be determined how that will be 
disposed of. Our shipping industry along with the port industry 
will certainly be eager to work on that.
    Mr. Boustany. Do we have any cost estimates in implementing 
such systems?
    Mr. O'Hare. We don't have any cost estimates at this point 
because we don't know what technology will be available to do 
it, Congressman.
    Mr. Boustany. OK, thank you.
    How is the shipping industry supporting the onboard testing 
of ballast water treatment systems, any of you?
    Ms. Metcalf. Well, Mr. Chairman, I would like to start out 
by saying that I think for about the last five years, I waded 
through about 10,000 pages of proposals, and it was my pleasure 
to do so because I like pain, no, because I was allowed to 
participate in the technology review process with NOAA and 
MARAD and Coast Guard. Not only was that a good process, but it 
was a great experience for me because it allowed me to learn a 
little bit more about the different technologies and where they 
were in their development. So in that respect, we are 
supporting here in Washington within the Executive Branch 
deliberations.
    We also have a number of companies out there. I wish I 
could turn around and see my Coast Guard staff guy there, but I 
think he left. I think there are well over 100 testing programs 
that are beyond just the sort of: I have a great idea; let us 
put it on the lab countertop. I think there are over 100 
projects globally that are at least at pilot stage which would 
be a higher capacity shore-based program that would be testing 
real seawater. I would say there are probably 30 that are on 
board ships right now all over the world.
    The support of that is very sporadic. Some companies have 
received support through the NOAA and the demonstration 
projects, while other companies have just kind of mined out on 
their own and said, we need to solve this problem, so let us 
put some money up.
    Mr. Boustany. Thank you.
    What is the relative risk of NOBOB vessels operating in 
U.S. waters without having first carried out ballast water 
exchange? Do we have a pretty good estimate of that risk?
    Ms. Hazlewood. Well, an estimate of the risk, I think, to 
some extent is dependent upon the geographic area that has been 
studied. In the Great Lakes, I believe the issue has been 
studied better perhaps than in other areas of the Country.
    There was a fairly high level study recently concluded, I 
think in 2004, from Cornell University and University of 
Michigan with support from NOAA that tried to quantify the risk 
associated with NOBOB vessels entering the Great Lakes. At the 
time, and I apologize for an oversimplification, but they 
concluded it was a significant risk that should be addressed. 
Coast Guard has included, I think, recognition of this study in 
some of their recent efforts to study the NOBOB issue and to 
consider it. I would be happy to follow up with you to just 
give you an update of the Coast Guard's activity on that, if 
that would be helpful.
    Mr. Boustany. I thank you.
    Dr. Ehlers, do you have a follow-up question?
    Mr. Ehlers. Just a comment to wrap things up, I really 
appreciate the hearing. It has been very, very helpful to me, 
and I want to thank the witnesses on both panels for 
stimulating some new ideas in my head. The older I get, the 
more difficult that seems to be. So I definitely appreciate it.
    I also want to mention one thing to Ms. Metcalf that I 
forgot to mention earlier, and that is I absolutely, totally 
agree with your comment that ballast water transfer is not the 
answer. I think it is dangerous. I think there are far better, 
simpler ways of doing it that will be lower cost, but we 
haven't found them yet.
    I am convinced we can do a better job if we really take a 
look at it from ground zero, a thorough, good, technical, 
scientific approach to the issue. I think if we do that 
together, we can come up with solutions that are less costly 
for you as well as safer and also less costly for the 
Government and the taxpayers.
    With that, I yield back.
    Mr. Boustany. Thank you, Dr. Ehlers.
    I have one final question, and I asked a similar question 
to the first panel. That is: Are existing ballast water 
treatment technologies capable of effectively removing or 
killing smaller organisms, bacteria, and viruses in the ballast 
water? I would be interested in hearing all three of you 
comment on that.
    Ms. Hazlewood. Here, too, I have had to defer to greater 
experts than me. In talking to staff at EPA and Coast Guard 
along with ballast technology vendors, I have been assured that 
they can address even the smaller mechanisms.
    I would suggest that in drafting a significant proposal, 
though, simply that if you start with a numeric floor, you 
include a process to ensure agency review that includes 
participation from stakeholders to ensure it is a meaningful 
standard that is robust. I think that is my greatest 
justification for always encouraging a technology-forcing 
standard that looks to what can we do better in time because it 
will force the same study of the meaningful standard.
    Mr. Boustany. Thank you.
    Do either of the two of you have other comments?
    Ms. Metcalf. Yes, there is technology available that can 
kill anything.
    [Laughter.]
    Ms. Metcalf. Hospitals have employed it for a number of 
years. The difficulty is taking the leap from a small-scale 
system and putting it on a thousand foot long vessel that 
carries 40,000 metric tons of ballast water that needs to move 
that ballast water at 5,000 metric tons per hour to meet its 
current economies of motion.
    Absolutely, the technology is there. The difficulty is 
taking that step through wonderland and actually making it a 
reality on a large-scale application.
    Mr. Boustany. Thank you. That is all I have.
    Dr. Ehlers, do you have any further questions?
    Mr. Ehlers. No further questions.
    Mr. Boustany. We thank you very much for your testimony and 
your answers to these questions.
    With that, the Subcommittee stands adjourned.
    [Whereupon, at 11:47 a.m., the subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T0657.001
    
    [GRAPHIC] [TIFF OMITTED] T0657.002
    
    [GRAPHIC] [TIFF OMITTED] T0657.003
    
    [GRAPHIC] [TIFF OMITTED] T0657.004
    
    [GRAPHIC] [TIFF OMITTED] T0657.005
    
    [GRAPHIC] [TIFF OMITTED] T0657.006
    
    [GRAPHIC] [TIFF OMITTED] T0657.007
    
    [GRAPHIC] [TIFF OMITTED] T0657.008
    
    [GRAPHIC] [TIFF OMITTED] T0657.009
    
    [GRAPHIC] [TIFF OMITTED] T0657.010
    
    [GRAPHIC] [TIFF OMITTED] T0657.011
    
    [GRAPHIC] [TIFF OMITTED] T0657.012
    
    [GRAPHIC] [TIFF OMITTED] T0657.013
    
    [GRAPHIC] [TIFF OMITTED] T0657.014
    
    [GRAPHIC] [TIFF OMITTED] T0657.015
    
    [GRAPHIC] [TIFF OMITTED] T0657.016
    
    [GRAPHIC] [TIFF OMITTED] T0657.017
    
    [GRAPHIC] [TIFF OMITTED] T0657.018
    
    [GRAPHIC] [TIFF OMITTED] T0657.019
    
    [GRAPHIC] [TIFF OMITTED] T0657.020
    
    [GRAPHIC] [TIFF OMITTED] T0657.021
    
    [GRAPHIC] [TIFF OMITTED] T0657.022
    
    [GRAPHIC] [TIFF OMITTED] T0657.023
    
    [GRAPHIC] [TIFF OMITTED] T0657.024
    
    [GRAPHIC] [TIFF OMITTED] T0657.025
    
    [GRAPHIC] [TIFF OMITTED] T0657.026
    
    [GRAPHIC] [TIFF OMITTED] T0657.027
    
    [GRAPHIC] [TIFF OMITTED] T0657.028
    
    [GRAPHIC] [TIFF OMITTED] T0657.029
    
    [GRAPHIC] [TIFF OMITTED] T0657.030
    
    [GRAPHIC] [TIFF OMITTED] T0657.031
    
    [GRAPHIC] [TIFF OMITTED] T0657.032
    
    [GRAPHIC] [TIFF OMITTED] T0657.033
    
    [GRAPHIC] [TIFF OMITTED] T0657.034
    
    [GRAPHIC] [TIFF OMITTED] T0657.035
    
    [GRAPHIC] [TIFF OMITTED] T0657.036
    
    [GRAPHIC] [TIFF OMITTED] T0657.037
    
    [GRAPHIC] [TIFF OMITTED] T0657.038
    
    [GRAPHIC] [TIFF OMITTED] T0657.039
    
    [GRAPHIC] [TIFF OMITTED] T0657.040
    
    [GRAPHIC] [TIFF OMITTED] T0657.041
    
    [GRAPHIC] [TIFF OMITTED] T0657.042
    
    [GRAPHIC] [TIFF OMITTED] T0657.043
    
    [GRAPHIC] [TIFF OMITTED] T0657.044
    
    [GRAPHIC] [TIFF OMITTED] T0657.045
    
    [GRAPHIC] [TIFF OMITTED] T0657.046
    
    [GRAPHIC] [TIFF OMITTED] T0657.047
    
    [GRAPHIC] [TIFF OMITTED] T0657.048
    
    [GRAPHIC] [TIFF OMITTED] T0657.049
    
    [GRAPHIC] [TIFF OMITTED] T0657.050
    
    [GRAPHIC] [TIFF OMITTED] T0657.051
    
    [GRAPHIC] [TIFF OMITTED] T0657.052
    
    [GRAPHIC] [TIFF OMITTED] T0657.053
    
    [GRAPHIC] [TIFF OMITTED] T0657.054
    
    [GRAPHIC] [TIFF OMITTED] T0657.055
    
    [GRAPHIC] [TIFF OMITTED] T0657.056
    

</pre></body></html>
